                 Review of the RRB’s Document Imaging Initiative

                      For Railroad Retirement Act Programs

                          Report No. 01-07, June 5, 2001


This report presents the results of the Office of Inspector General’s (OIG) monitoring
review of the design and implementation of document imaging for Railroad Retirement
Act (RRA) programs. This is the third report of the OIG’s ongoing review of the imaging
system. The prior reviews examined the planning process for expanding document
imaging to RRA programs (Audit Report No. 99-15, September 23, 1999) and imaging
initiatives in the Unemployment and Sickness Insurance programs (Audit Report No.
01-01, November 17, 2000).

Background

The Railroad Retirement Board’s (RRB) mission is to administer retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and their
families. During fiscal year 2000, the RRB paid approximately $8.3 billion in retirement
and survivor benefits to about 724,000 beneficiaries.

The RRB is an information-intensive agency that stores and handles many paper
documents in claim folders. In its Strategic Plan for 2000-2005, one RRB objective is to
“Design and implement information technology initiatives that fundamentally improve
our efficiency and effectiveness in achieving the agency’s mission.” Document imaging
is one of these initiatives. Document imaging is a technology for scanning paper
documents to create easily accessible electronic records instead of paper claim folders.

The RRB has used document imaging to process sickness insurance applications and
to retain copies of tax statements since the early 1990s. During fiscal year 1998, the
agency’s Automated Data Processing (ADP) Steering Committee approved capital
expenditures of approximately $400,000 for computer hardware and software to replace
the existing obsolete system with a modern system. The replacement Railroad
Unemployment Insurance Act (RUIA) system became operational on June 14, 1999.
The RRB expanded the RUIA document imaging system to include correspondence and
to allow limited access to other operational units within the agency. The RRB
considered the expansion complete in March 2000, but continues to enhance the RUIA
system, including making the system available to its field offices.

In addition, the RRB created work teams in the Office of Programs to examine
alternatives for extending document imaging and workflow to RRA activities. The work
teams prepared a Cost Benefit Analysis (CBA) which examined the alternatives,
projected cost savings and agency benefits for each alternative, and made
recommendations. On March 10, 1999, the ADP Steering Committee approved the
CBA and fiscal year 1999 expenditures of $311,000 for the RRA document imaging
expansion. The total developmental cost of the RRA project is estimated at $2.5 million
including $1.1 million in RRB staff costs. The Office of Programs is responsible for
designing and implementing the document imaging project.
The potential benefits of a document imaging system include faster adjudication of
claims and improved control over work items. Examiners no longer have to wait for
paper documents. Also, multiple users can view a document at the same time. The
workflow features enable the agency to automatically route work, set call-up dates, and
establish security over the handling of items. The system can also provide
management with reports of pending work items and other useful information such as
historical work volumes and processing times.

One of the challenges facing the agency is to ensure the integrity of records in the
document imaging system and the paper input documents used by the system. These
records must meet the fiscal and administrative needs of the entire agency and be
maintained in accordance with federal records regulations. The RRB has formed a
working group consisting of representatives from the Office of Programs, Bureau of
Information Services, Bureau of Law and OIG to discuss document retention issues
related to RRA document imaging.

The OIG’s Review of Document Imaging, Unemployment and Sickness Insurance
Programs (Audit Report No. 01-01) noted several deficiencies in the RRB’s procedures
and controls. These deficiencies related to the reliability of the imaged documents,
access to the imaging system, backup and recovery of the imaging system, and
retention of the system’s paper input document. The RRB is in the process of
implementing the recommendations in the report. The RRB expects to complete the
corrective actions by August 31, 2001.

OBJECTIVE & SCOPE

The OIG’s overall objective for this review was to monitor the design and
implementation of the RRA imaging system to ensure that adequate controls are being
developed and that the RRB is following its system development life cycle policies.

The scope of this review encompassed the planning and development for RRA
document imaging. To accomplish the audit objective, the OIG interviewed
management and potential users in RRA program areas. The OIG also assessed:

•   applicable laws, regulations and procedures,
•   RRB management reports relating to RRA document imaging,
•   agency’s system development life cycle policies,
•   RRA implementation plans,
•   imaging policies and procedures,
•   cost data on the RRA imaging development,
•   security procedures for the imaging system, and
•   document retention issues.

The OIG conducted the audit in accordance with generally accepted government
auditing standards appropriate to this review. Auditors performed the fieldwork at RRB
headquarters office in Chicago, Illinois from December 1999 through May 2001.


                                           1

                                 RESULTS OF REVIEW


Our review determined that the RRB is adequately designing the RRA imaging system
to ensure adequate controls and the RRB is following its system development life cycle
policies. However, the RRB is behind schedule in implementing the RRA system. In
addition, we noted deficiencies in the implementation of the imaging system. The RRB
is not adequately tracking cost data for the document imaging project. The RRB also is
not in compliance with document retention regulations.

We determined that most of the procedure and control deficiencies noted in our prior
review of the RUIA document imaging system also apply to the RRA system because
both systems use similar procedures and controls. Therefore, implementation of our
recommendations from the prior review will improve the reliability of RRA and RUIA
imaged documents. We plan to test the reliability of the imaged documents in future
audits.

Detailed findings, recommendations, and the project status are discussed below.

Cost Accumulation

The RRB is not adequately tracking the following costs for the document imaging
project:

•   the salary and benefits of RRB personnel working on the project;
•   the differential cost of 21-inch monitors over 17-inch monitors; and
•   the maintenance cost for imaging software and hardware.

When the RRB completes a project involving a major information technology
investment, RRB Administrative Circular IRM-12 requires the responsible bureau/office
head to conduct a post-implementation review. This review compares estimated costs,
schedule, performance and benefits against the actual results to the extent this
information is known at the time of the review. Results of the review should be provided
to the ADP Steering Committee. A project is considered a major information technology
investment if projected costs are expected to exceed 1% of the agency's fiscal year
technology and automation obligations. The document imaging system exceeds the
1%. The Office of Programs plans to perform a post-implementation review when the
project is completed in 2002 or 2003.

Tracking actual costs as they are incurred is more efficient and produces more reliable
data than attempting to accumulate the costs at the end of the project. This is
especially true for projects that will take several years to implement, such as the RRA
document imaging project. Furthermore, interim review is an effective control over long-
term projects.




                                             2

The Office of Programs is not adequately tracking costs because it does not have a
formalized system to track project cost. The office is not producing interim reports
because current policy only requires a post implementation review. Additionally, the
office has not asked other RRB units for periodic reports of document imaging-related
costs incurred.

The Office of Programs, as the responsible office for the document imaging project,
incurs the majority of the costs. However, other RRB units incur some development
and maintenance costs as well as testing costs, including the Bureau of Information
Services (BIS).

Because the Office of Programs has not compiled all the cost information, the office
cannot provide RRB management with timely and complete cost information on the
imaging project. In addition, the Office of Programs will have more difficulty determining
actual costs or estimating costs for the post implementation review. An estimate made
close to when the cost is incurred is generally more reliable than an estimate made one
or two years later.

Recommendations

The Office of Programs should:

•	 Develop a system to track development and recurring costs for all information
   technology projects that exceed 1% of the agency's fiscal year technology and
   automation obligations (Recommendation #1).

•	 Begin tracking the salary and benefits of RRB personnel working on document
   imaging. This should include both development staff and any other staff working in a
   new function created for document imaging, such as the staff who scan and index
   documents (Recommendation # 2).

•	 Prepare a current report on all development and recurring costs incurred to date,
   including salary and benefits, on the RRA document imaging project
   (Recommendation #3).

•	 Request BIS and other RRB units to periodically submit data on document imaging-
   related costs incurred to date (Recommendation #4).

Management’s Response

The Office of Programs concurs with these four recommendations.




                                            3

Document Retention

The RRB is not in compliance with document retention regulations. The agency is not
in compliance because it has changed its maintenance of records but has not updated
its records disposition schedule.

National Archives and Records Administration (NARA) regulations state that it is the
agency’s responsibility to develop and implement records schedule for all records
created and received by the agency and to obtain NARA approval of the schedules1.
To obtain NARA’s approval, Federal agencies submit Standard Form 115, Request for
Records Disposition Authority2. All record schedules should include the physical
organization of records or the filing system3. Agencies must review existing schedules,
and update them annually, if necessary4. The RRB’s records disposition schedules
contain disposition authority for RRA claim folders.

The RRB has stopped creating some of these claim folders and started building
electronic folders for file only type items (February 2000), Medicare Initial applications
(April 2000), and some Retirement Initial applications (October 2000). The RRB is still
creating folders for Disability Benefit applications.

RRB management has not submitted a Request for Records Disposition Authority to
NARA. The Request has been delayed because of other work priorities for some
members of the document retention working group. The request will be to replace the
current disposition authority for RRA claim folders and must cover all claim file materials
regardless of program area. Therefore, the retention schedule in the Request must
address two issues. First, the RRB has stopped creating folders at different dates for
each of its program areas (e.g. Retirement Initial, Medicare, etc.) The new retention
schedule must have cut-off dates for each RRB program area. Secondly, the Request
will have to address RRB records that are maintained in paper claim folders, imaged
documents, and a combination of paper and imaged records.

Additionally, for long-term paper documents, the document retention working group had
agreed to a retention period of 7 years after the date that the document is scanned into
the system. This agreement was based on the understanding that all long-term
documents, including all initial applications, would be scanned into the imaging system.
However, the Office of Programs made the decision to not image certain applications
without consulting the other working group representatives.

Because the RRB has not updated, and NARA has not approved, a new records
disposition schedule, the agency must continue to incur costs related to paper claim
folders.


1
  36 CFR 1222.20(b)(6)
2
  36 CFR 1228.26 and 1228.32
3
  36 CFR 1228.24(b)(3)
4
  36 CFR 1228.50(d)


                                             4

Recommendations

The RRB’s Records Officer should complete the Request for Records Disposition
Authority and submit it to NARA (Recommendation #5).

The Office of Programs should continue to create claim folders until the RRB submits its
Request for Disposition Authority (Recommendation #6).

The Office of Programs should retroactively create claim folders for file only type items
(beginning February 2000), Medicare initial applications (April 2000), and some
Retirement initial applications (October 2000) (Recommendation #7).

Management’s Response

The RRB’s Records Officer concurs with Recommendation #5. A complete copy of the
response is included in Attachment 2. The Office of Programs does not fully agree with
Recommendations #6 and #7. They have advised that “all material previously filed in
the claim folder is being maintained.” The Office of Programs also stated that “nothing
has been or will be destroyed while we complete work on a new schedule.”

OIG Response

Concerning Recommendations #6 and #7, the OIG maintains the position that the Office
of Programs should continue to create claim folders until a new retention schedule is
submitted and retroactively create claim folders for the RRA applications we cite in our
recommendation. This procedure would ensure that the agency continues to maintain a
viable system of records for legal, regulatory, governmental and investigative purposes.

The Office of Programs is currently maintaining the paper applications and the
supporting documents for these RRA applications separately from claim files. The RRB
Records Officer has advised that since these documents are no longer in claim files,
they are unscheduled records. The claim folder is part of the current system of records
for the agency. The RRB can not send unscheduled records to the Federal Records
Center without special approval. Also, the Office of Programs has not advised us about
procedures and controls to ensure that these documents are not misfiled or misplaced.
The OIG believes that there are no controls over access to many of these documents.

Implementation Schedule

The RRB is behind schedule in the implementation of the RRA document imaging
system. Based on the February 25, 2000 implementation plan, the following items
should have been completed by the end of fiscal year 2000: Archive Direct, Medicare
Initial, Retirement Initial, Disability Initial, Disability and Medicare Post Entitlement
activities. To date, the RRB has not implemented any workflow features related to RRA
activities and only Archive Direct has been fully implemented. Archive Direct covers file
only type items such as garnishment notices received prior to entitlement to benefits.



                                             5

These documents require no immediate action by the RRB but must be retained for
future reference.

The RRB also has partially implemented Medicare Initial and Retirement Initial
applications. The RRB has stopped creating new paper claim files and started building
electronic folders for these two areas; yet, if a claim file already exists, the RRB is still
filing paper documents in these folders.

The RRB implementation delays are primarily software-related. In early 2000, the
software vendor released new workflow software and the new version did not contain all
of the features of the old version, including important security features. Due to
complaints by the RRB and other customers, the vendor is revising the software to
improve functionality and restore features. The new software should be available in the
third quarter of calendar year 2001. Therefore, the RRB has decided to delay the
introduction of workflow until the new software is available.

In addition, RRB is reassessing and modifying the order of implementation because the
software vendor introduced new software (‘Web Connector’) that allows field and
headquarters users to search the RRA imaging system to view documents and folders.
This new software gives the field offices access to document imaging earlier than
planned; the initial implementation plan was to provide field access in fiscal year 2002.
Also, RRB management has advised that using this software will result in cost savings
to the agency because some users will not need the more expensive imaging and
workflow licenses. This may offset additional staff hours and associated costs that may
result from the implementation delays.

The RRB is reassessing the implementation schedule due to the introduction of the new
software. RRB management expects to complete a revised implementation plan by
December 31, 2001. The revised plan will contain a detailed explanation of any major
deviations from the original implementation plan and the Cost Benefit Analysis, and new
deadlines for key phases of the project. The OIG is making no recommendations at this
time because RRB management is already taking appropriate action.

System Development Life Cycle Policies

The Office of Programs has generally followed the RRB’s system development life cycle
policies for the RRA document imaging project. The system development life cycle
steps include:

•	 Project definition, which defines the scope, alternatives, assumptions and solutions
   for the project;
•	 Requirements definition, which defines detailed system information on the project,
   such as a flowchart, inputs, outputs and controls;
• Design of the system, including test plans, procedures and the implementation plan;
• Coding of the application and testing of the system;



                                              6

•	 Acceptance testing by users of the system, which includes preparing training
   packages and finalizing procedures; and
• Implementation of the system.

The Office of Programs’ CBA and Implementation Plan contained sufficient information
relating to many of the above phases. Also, development issues identified in our prior
RUIA review apply to the RRA system. For example, the acceptance testing training
packages for scanning and indexing tasks are very similar to those for the RUIA
imaging. Implementation requirements for the system reference manual and program
reference manual are also the same as the RUIA.

In addition, the vendor imaging software provides much of the system information
required by the RRB’s policy. For example, the system edits, interfaces, security, on-
line help screens, and technical information is included in the vendor software. The
Office of Programs also plans to prepare detailed flowcharts showing interfaces, trails,
and edits for each RRA phase as it is developed.

RRB claims examiners have had limited involvement since the beginning of the imaging
project. Most of the initial input came from supervisors and user analysts. The RRB is
increasing examiner involvement as the project gets closer to implementation.




                                            7

